TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Additional Actions Are Needed to Protect
                    Taxpayers’ Rights During the Lien Due
                                   Process



                                         June 16, 2009

                            Reference Number: 2009-30-089




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review
 process and information determined to be restricted from public release has been redacted from
                                          this document.

 Redaction Legend:
 1 = Tax Return/Return Information
 3(d) = Identifying Information - Other Identifying Information of an Individual or Individuals


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   June 16, 2009


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Additional Actions Are Needed to Protect
                               Taxpayers’ Rights During the Lien Due Process (Audit # 200930001)

 This report presents the results of our review to determine whether liens issued by the Internal
 Revenue Service (IRS) comply with legal guidelines set forth in Internal Revenue Code (I.R.C.)
 Section (§) 6320 (a) 1 and related guidance in the Federal Tax Lien Handbook. The Treasury
 Inspector General for Tax Administration is required by law to determine annually whether lien
 notices sent by the IRS comply with the legal guidelines in I.R.C. § 6320. 2 This is our eleventh
 annual audit to determine the IRS’ compliance with the law and with its own related internal
 guidelines when sending lien notices.

 Impact on the Taxpayer
 After filing Notices of Federal Tax Lien, the IRS must notify the affected taxpayers in writing, at
 their last known address, 3 within 5 business days of the lien filings. However, as noted in
 previous audits, the IRS has not always complied with this statutory requirement and did not
 always follow its own internal guidelines for notifying taxpayer representatives of the filing of
 lien notices. Therefore, some taxpayers’ rights to appeal the lien filings may have been
 jeopardized, and others may have had their rights violated when the IRS did not notify their
 representatives of lien filings.



 1
   I.R.C. § 6320 (Supp. V 1999).
 2
   I.R.C. § 7803(d)(1)(A)(iii) (Supp. V 1999).
 3
   The last known address is that one shown on the most recently filed and properly processed tax return, unless the
 IRS received notification of a different address.
                        Additional Actions Are Needed to Protect Taxpayers’ Rights
                                        During the Lien Due Process




Synopsis
The IRS attempts to collect Federal taxes due from taxpayers by sending letters, making
telephone calls, and meeting face to face with taxpayers. The IRS has the authority to attach a
claim to the taxpayer’s assets for the amount of unpaid tax when the taxpayer neglects or refuses
to pay. 4 This claim is referred to as a Federal Tax Lien, which notifies interested parties that a
lien exists.
Our review of a statistically valid sample of 125 Federal Tax Lien cases determined that in all
125 cases the IRS mailed lien notices in a timely manner, as required by I.R.C. § 6320 and
internal procedures. However, the IRS did not always follow its own regulations and internal
guidelines for notifying taxpayers’ representatives of the filing of lien notices. For 8 (30 percent)
of the 27 cases in which the taxpayer had an authorized representative at the time of the lien
actions, the IRS did not notify the taxpayer’s representative of the lien filing. The IRS did not
have an automated process that updated taxpayer representative information directly with the
system that generates the lien notices.
When an initial lien notice is returned because it could not be delivered and a different address is
available for the taxpayer, the IRS does not always meet its statutory requirement to send the lien
notice to the taxpayer’s last known address. For 234 (83 percent) of 283 cases, employees did
not research IRS computer systems for different addresses. We also identified 17 cases for
which a new lien notice should have been sent to the taxpayer at the updated address because the
IRS systems listed the address prior to the lien filing. The 17 cases could involve legal violations
because the IRS did not meet its statutory requirement of sending lien notices to the taxpayer’s
last known address.
In August 2007, the IRS decentralized the processing of undelivered lien notices by returning
them to the employees or functions requesting the lien instead of returning them to a single
location. This was done because employees were not always researching undelivered notices
timely and the IRS believes that the originating employee is in the best position to address
undelivered lien notices. However, instead of improving the process, the number of undelivered
notices that were not timely researched increased from 33 percent in Fiscal Year 2008 to nearly
83 percent in Fiscal Year 2009. This occurred, in part, because management oversight was not
adequate to ensure undelivered mail was worked timely. In addition, management did not have
the information necessary to monitor the processing of undelivered lien notices, which are now
being returned to over 450 locations throughout the country instead of 1 centralized site.
To provide a method of monitoring and reviewing undelivered lien notices, the IRS established
procedures to enable employees and managers to determine the mail status of lien notices


4
    I.R.C. § 6321 (1994).
                                                                                                   2
                      Additional Actions Are Needed to Protect Taxpayers’ Rights
                                      During the Lien Due Process



without Automated Lien System (ALS) 5 research. These procedures require employees
processing undelivered lien notices to input a specific transaction code with an appropriate action
code to the Integrated Data Retrieval System 6 to indicate the reason the lien notice was returned
(e.g., undelivered, unclaimed, or refused). This would allow management to monitor and track
the status of undelivered lien notices. Our test of undelivered lien notices determined that the
IRS is not complying with this procedure. The transaction code and associated action code were
not input to the Integrated Data Retrieval System for any of the 283 undelivered lien notices that
we sampled. Management recognized this problem prior to our review and began corrective
action by revising the Internal Revenue Manual to require employees to enter the undeliverable
lien information into the Integrated Data Retrieval System. Because the corrective action
occurred after the period of our sample cases, we are not making a recommendation to address
this problem. We will assess the effectiveness of the corrective action in next year’s review.

Recommendations
To ensure taxpayers’ representatives receive lien notices, we recommended that the Director,
Collection, Small Business/Self-Employed Division, establish an automated process that would
systemically upload taxpayer representative information directly from the Centralized
Authorization File 7 to the ALS. In addition, the Director, Collection, Small Business/
Self-Employed Division, should determine why lien notices were not sent to taxpayers’
representatives in the cases where the lien was initiated after the upload of Centralized
Authorization File information to the Automated Collection System was automated and take
actions to correct the problem. Also, to ensure accurate notification of lien filings, we
recommended that the Director, Collection Policy, Small Business/Self-Employed Division,
establish an automated check of a taxpayer’s last known address in the ALS prior to printing a
lien notice.

Response
IRS management agreed with all of our recommendations and is taking corrective actions. The
Director, Collection, Small Business/Self-Employed Division, will determine the feasibility of
establishing an automated process that would systemically upload taxpayer representative
information directly from the Centralized Authorization File to the ALS and, if feasible, request
and implement programming enhancements. The Director, Collection, also reviewed the cases


5
  See Appendix VI for descriptions of IRS computer systems used in the filing of Notices of Federal Tax Lien.
6
  IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
7
  The Centralized Authorization File contains information regarding the types of authorization that taxpayers have
given representatives for various tax periods within their accounts.
                                                                                                                     3
                  Additional Actions Are Needed to Protect Taxpayers’ Rights
                                  During the Lien Due Process



we identified in this report and has taken appropriate corrective actions. In addition, the
Director, Collection, will review current programming of the systems interfacing with the ALS
to ensure that taxpayer representative notifications are sent to the ALS for each lien when
multiple liens are requested and, if required, prepare and issue memorandums to system owners
requiring programming corrections be initiated to ensure that a separate taxpayer representative
notification is issued with each lien request. Further, the Director, Collection Policy, will
determine if the ALS can accommodate Integrated Data Retrieval System real-time data
exchange and, if feasible, initiate programming work requests. Management’s complete
response to the draft report is included as Appendix VII.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations), at (202) 622-8510.




                                                                                                   4
                         Additional Actions Are Needed to Protect Taxpayers’ Rights
                                         During the Lien Due Process




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Lien Notices Were Mailed Timely ...............................................................Page 4
          The Internal Revenue Service Did Not Comply With Regulations
          for Notifying Taxpayer Representatives.......................................................Page 4
                    Recommendation 1:........................................................Page 6

                    Recommendation 2: .................................................................. Page 7

          Ineffective Working of Undelivered Lien Notices Resulted in Potential
          Violations of Taxpayers’ Rights ...................................................................Page 7
                    Recommendation 3:........................................................Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 11
          Appendix II – Major Contributors to This Report ........................................Page 14
          Appendix III – Report Distribution List .......................................................Page 15
          Appendix IV – Outcome Measures...............................................................Page 16
          Appendix V – Synopsis of the Internal Revenue Service Collection
          and Lien Filing Processes .............................................................................Page 17
          Appendix VI – Internal Revenue Service Computer Systems Used
          in the Filing of Notices of Federal Tax Lien.................................................Page 19
          Appendix VII – Management’s Response to the Draft Report.....................Page 20
         Additional Actions Are Needed to Protect Taxpayers’ Rights
                         During the Lien Due Process




                       Abbreviations

ACS              Automated Collection System
ALS              Automated Lien System
CAF              Centralized Authorization File
ICS              Integrated Collection System
IDRS             Integrated Data Retrieval System
I.R.C.           Internal Revenue Code
IRS              Internal Revenue Service
SB/SE            Small Business/Self-Employed
                      Additional Actions Are Needed to Protect Taxpayers’ Rights
                                      During the Lien Due Process




                                             Background

The Internal Revenue Service (IRS) attempts to collect Federal taxes due from taxpayers by
sending letters, making telephone calls, and meeting face to face with taxpayers. The IRS has
the authority to attach a claim to the taxpayer’s assets for the amount of unpaid tax when the
taxpayer neglects or refuses to pay. 1 This claim is referred to as a Federal Tax Lien. The IRS
files in appropriate local government offices a Notice of Federal Tax Lien 2 (lien notice), which
notifies interested parties that a lien exists.
Since January 19, 1999, Internal Revenue Code Section (I.R.C. §) 6320 3 has required the IRS to
notify taxpayers in writing within 5 business days of the
filing of a Notice of Federal Tax Lien. The IRS is            The IRS must notify taxpayers in
required to notify taxpayers the first time a Notice of        writing of the filing of a Federal
Federal Tax Lien is filed for each tax period. The lien        Tax Lien within 5 business days
notice, Notice of Federal Tax Lien Filing and Your                       of the filing.
Right to a Hearing Under IRC 6320 4 (Letter 3172), is
used for this purpose and advises taxpayers that they
have 30 calendar days, after that 5-day period, to request a hearing with the IRS Appeals office.
The lien notice indicates the date on which this 30-day period expires.
The law also requires that the lien notice explain, in simple terms, the amount of unpaid tax,
administrative appeals available to the taxpayer, and provisions of the law and procedures
relating to the release of liens on property. The lien notice must be given in person, left at the
taxpayer’s home or business, or sent by certified or registered mail to the taxpayer’s last known
address. 5
Most lien notices are mailed to taxpayers by certified or registered mail rather than being
delivered in person. The IRS Automated Lien System (ALS) generates a certified mail list
which identifies each notice that is to be mailed. The notices and a copy of the certified mail list
are delivered to the United States Postal Service. A Postal Service employee ensures that all
notices are accounted for and date stamps the list and returns a copy to the IRS. The stamped
certified mail list is the only documentation the IRS has that certifies the date on which the


1
  Internal Revenue Code Section 6321 (1994).
2
  Notice of Federal Tax Lien (Form 668(Y) (c); (Rev. 10-1999)), Cat. No. 60025X.
3
  I.R.C. § 6320 (Supp. V 1999).
4
  Notice of Federal Tax Lien Filing and Your Right to a Hearing Under IRC 6320 (Letter 3172 (Rev. 9-2006)),
Cat. No. 26767I.
5
  The last known address is that one shown on the most recently filed and properly processed tax return, unless the
IRS received notification of a different address.
                                                                                                             Page 1
                                      Additional Actions Are Needed to Protect Taxpayers’ Rights
                                                      During the Lien Due Process



notices were mailed. A synopsis of the IRS collection and lien filing processes is included in
Appendix V.
Depending on employee access, lien requests can be generated using one of three IRS systems:
1) the Integrated Collection System (ICS), 2) the Automated Collection System (ACS), or
3) the ALS. A description of IRS computer systems used in the filing of lien notices is included
in Appendix VI.
The IRS has increased the number of Federal Tax Liens it has filed to protect the Federal
Government’s interest. As shown in Figure 1, the number of Federal Tax Liens increased
sharply in Fiscal Year 2001, decreased slightly in Fiscal Years 2004 and 2005, and has increased
each year since then.
                            Figure 1: Number of Liens Filed From Fiscal Years 2000 - 2008

                                                                                                            768,168
                            800,000                                                              683,659
                            700,000                                                    629,813
                            600,000                             548,683 534,392 522,887
          Number of Liens




                                                        482,509
                            500,000           426,166
                            400,000     287,517
                            300,000
                            200,000
                            100,000
                                 0
                                       2000   2001      2002    2003   2004    2005    2006      2007      2008
                                                                    Fiscal Years


Source: IRS Data Books published in Fiscal Years 2003, 2007 and 2008. 6

The Treasury Inspector General for Tax Administration is required to determine annually
whether, when filing lien notices, the IRS complied with the law regarding the notifications of
affected taxpayers and their representatives. 7 This is our eleventh annual audit to determine
whether the IRS complied with the legal requirements of I.R.C. § 6320 and its own related
internal guidelines for filing lien notices. In prior years, we reported that the IRS had not yet
achieved full compliance with the law and its own internal guidelines. This year, our statistically
valid sample did not identify any lien notices that were not mailed in a timely manner. However,
we identified potential violations of taxpayer rights because the IRS did not notify the taxpayer’s

6
  The IRS Data Book is published annually by the IRS and contains statistical tables and organizational information
on a fiscal year basis.
7
  I.R.C. § 7803(d)(1)(A)(iii) (Supp. V 1999).
                                                                                                                      Page 2
                                         Additional Actions Are Needed to Protect Taxpayers’ Rights
                                                         During the Lien Due Process



representative. Our review of a judgmental sample of undelivered lien notices found potential
violations of taxpayer rights when the IRS did not use the taxpayer’s last known address.
Figure 2 shows the percentages of potential violations of taxpayer rights we identified during our
prior annual audits.
  Figure 2: Potential Violations of Taxpayer Rights Based on Timely Notification

                                         8%
              Percentage of Violations




                                         6%
                                                5%         5%         5%

                                         4%
                                                                                3%            3%

                                         2%


                                         0%
                                               2004       2005       2006       2007         2008
                                                                 Fiscal Years

           Source: Treasury Inspector General for Tax Administration mandatory lien reports issued during
           Fiscal Years 2003 - 2008.

We performed our audit work in the Small Business/Self-Employed (SB/SE) Division Office of
Collection Policy in Washington, D.C., and the Centralized Lien Unit in Covington, Kentucky,
during the period August 2008 through January 2009. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                                      Page 3
                      Additional Actions Are Needed to Protect Taxpayers’ Rights
                                      During the Lien Due Process




                                      Results of Review

Lien Notices Were Mailed Timely
Our review of a statistically valid sample of 125 lien notices from the ALS did not identify any
legal violations with I.R.C. § 6320. I.R.C. § 6320 requires the IRS to notify taxpayers in writing,
at their last known address, within 5 business days of the filing of a Notice of Federal Tax Lien.
The majority of lien notices are sent to the taxpayers via certified mail. In order to support the
timely notification of taxpayers, IRS procedures require retention of the date-stamped copy of
the certified mail lists for 10 years after the end of the processing year. This year, the IRS was
able to provide proof for the timely mailing of all 125 lien notices in our statistical sample. This
is an improvement over our last year’s audit, in which the IRS could not provide proof of mailing
for 3 percent of sampled lien notices.

The Internal Revenue Service Did Not Comply With Regulations for
Notifying Taxpayer Representatives
Taxpayer representative information is contained on the Centralized Authorization File (CAF) 8
that is located on the Integrated Data Retrieval System (IDRS). 9 Using the IDRS, employees can
research the CAF to identify the types of authorization given to taxpayer representatives.
IRS regulations 10 require that once a taxpayer representative has been recognized as such, he or
she must be given copies of all correspondence issued to the taxpayer. This applies to all
computer or manually generated notices or other written communications. Employees
responsible for making lien filing determinations are to ensure that all appropriate persons, such
as those with a taxpayer’s power of attorney, receive a notice of the lien filing and the taxpayer’s
appeal rights. Specifically, IRS procedures require that a copy of the notice be sent to the
taxpayer’s representative no later than 5 business days after the notice is sent to the taxpayer
when a Notice of Federal Tax Lien is filed.
The ACS and the ICS interface with the ALS. In January 2008, the ACS implemented a process
that provides CAF information to the ALS during the upload of the lien notice information.
When a lien request is initiated on the ICS or the ACS, the taxpayer representative information

8
  The CAF contains information about the type of authorizations taxpayers have given their representatives for their
tax returns.
9
  IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
10
   26 Code of Federal Regulations § 601.506.
                                                                                                             Page 4
                     Additional Actions Are Needed to Protect Taxpayers’ Rights
                                     During the Lien Due Process



     Figure 3: Error Rates Reported on Notification of Taxpayer Representatives
                         Sampled Lien Cases                   Sampled Lien Cases Not
       Fiscal          Requiring Representative               Receiving Representative               Error
       Year                  Notification                           Notification                     Rate
       2006                       45                                     34                           76%
       2007                       25                                     15                           60%
       2008                       30                                     12                           40%
       2009                       27                                      8                           30%
 Source: Prior and current year results of Treasury Inspector General for Tax Administration tests of taxpayer
 representative notification.

In last year’s report, 11 we recommended that the Director, Collection, SB/SE Division, provide
better oversight to ensure that employees notify taxpayer representatives of lien filings and
computer enhancements are uploading power-of-attorney information as intended. Management
agreed to establish taxpayer representative verification procedures for employees initiating liens.
They also agreed to determine if the ACS and the CAF could include programming to match lien
notice data with taxpayer representative data prior to sending lien requests to the ALS to ensure
the Notice of Federal Tax Lien and the CAF had at least one matching tax period. This would
ensure there was no potential for unauthorized disclosure. Management also agreed to identify
any computer program enhancements to the lien process. These corrective actions were
implemented before our sample selection. However, we did not identify any plans to enhance
the automated processes, which would help reduce the number of taxpayer representatives who
are not notified of lien filings.

Recommendations
The Director, Collection, SB/SE Division, should:
Recommendation 1: Establish an automated process that would systemically upload taxpayer
representative information directly from the CAF to the ALS.
        Management’s Response: IRS management agreed with this recommendation and
        will 1) determine the feasibility of establishing an automated process that would
        systemically upload taxpayer representative information directly from the CAF to the
        ALS and 2) if feasible, request and implement programming enhancements.




11
 Fiscal Year 2008 Statutory Review of Compliance With Lien Due Process Procedures (Reference
Number 2008-30-082, dated March 27, 2008).
                                                                                                           Page 6
                   Additional Actions Are Needed to Protect Taxpayers’ Rights
                                   During the Lien Due Process



Recommendation 2: Determine why lien notices were not sent to taxpayers’ representatives
in the cases where the lien was initiated after the implementation of the automated CAF process
and take appropriate corrective actions to resolve the problem.
       Management’s Response: IRS management agreed with this recommendation and
       has already taken corrective action by reviewing the cases we identified and taking
       appropriate corrective actions. They will also 1) review current programming of systems
       interfacing with the ALS with systems owners to ensure taxpayer representative
       notifications are sent to the ALS for each lien when multiple liens are requested and
       2) if required, prepare and issue memorandums to system owners requiring programming
       corrections be initiated to ensure that a separate taxpayer representative notification is
       issued with each lien request.

Ineffective Working of Undelivered Lien Notices Resulted in Potential
Violations of Taxpayers’ Rights
IRS procedures require that employees send another lien notice to a new address if 1) the
originally mailed notice is returned as undelivered mail, 2) research confirms the original lien
notice was not sent to the last known address, 3) a different address is available for the taxpayer,
and 4) the address was effective prior to the lien notice filing. Employees are responsible for
certain actions when notices are returned as undeliverable. For example, they should research
the IRS computer system within 5 business days to ensure that the address on the original lien
notice is correct. If the employee cannot find a new address on the computer system, the
undelivered lien notice will be destroyed and a new notice is not issued.
If the address on the notice is not the last known address and a different address was in effect
prior to issuance of the original lien notice, employees should issue a new notice to the better
address. A new notice may be created by using an option in the ALS.
We selected a judgmental sample of 283 undelivered lien notices returned to the
Cincinnati, Ohio, Service Center for the period November 18 through November 25, 2008. The
sample included only returned mail identified as undelivered and did not include returned mail
identified as refused or unclaimed. For these 283 notices, we reviewed computer system audit
trails to determine whether IRS employees performed timely research to determine whether the
addresses were correct on the originally mailed notices. Our results showed that employees are
not timely researching IRS computer systems.
In 234 (83 percent) of 283 notices, employees did not perform required research of the IRS
computer system for a different address within 5 business days of receipt of the returned notice.
This is significantly higher than last year’s review in which employees did not timely perform
the research in 33 percent of lien notices. Employees performed the required research within
5 days of receipt of the returned notice for the remaining 49 notices (17 percent).


                                                                                              Page 7
                  Additional Actions Are Needed to Protect Taxpayers’ Rights
                                  During the Lien Due Process



Our test of undelivered lien notices identified 26 notices where the address on the IRS computer
system and the original lien notice did not agree. For 9 (35 percent) of the 26 notices, the
address on the IRS computer system was updated after the original lien notice was sent to the
taxpayer. Per IRS procedures, no additional action was required. However, for 17 notices
(65 percent), the address was updated prior to the issuance of the original lien notice and,
according to IRS procedures, a new lien notice should have been sent to the taxpayer at the
updated address. These cases could involve potential violations of taxpayer rights because the
IRS did not meet its statutory requirement of sending each lien notice to the taxpayer’s last
known address.
Lien notices are not sent to the most current addresses on the IDRS because, in part, the user
guides and applicable procedures pertaining to the systems that generate lien requests are
inconsistent in regards to verifying the current address of the taxpayer prior to preparing a lien.
In addition, employees are not always following established procedures for verifying the current
address of the taxpayer prior to preparing a lien request. Specifically, ACS procedures do not
require the user to verify the taxpayer’s name and address prior to preparing a lien. In addition,
the ALS does not perform an automated verification of the taxpayer’s last known address prior to
printing the lien notice. Further, management oversight was not adequate to ensure that
undelivered mail is worked appropriately. Management also indicated that the routing of the
returned mail could have contributed to the cause of the untimely research of the undelivered
mail (i.e., not within the required 5 business days of receipt).
In last year’s report, we identified similar conditions and recommended that the IRS provide
better oversight to ensure that employees are properly controlling and processing returned mail
as undelivered, researching computer systems for correct addresses, and resending lien notices.
The IRS agreed to establish proper control and processing of undelivered lien notices and, in
August 2007, revised its requirements to return undelivered lien notices to the employee or
function requesting the lien. This corrective action was implemented before our sample
selection. However, instead of correcting the problem, the number of undeliverable lien notices
that were not timely researched by employees increased from 33 percent to nearly 83 percent.
This may have occurred because employees were not following procedures designed to establish
accountability and visibility in the decentralized environment.

Employees are not following new procedures designed to monitor undeliverable
lien notices
In August 2007, the Director, Collection Policy, SB/SE Division, revised procedures for
handling undelivered lien notices. The new procedures decentralized the processing of
undelivered lien notices by returning them to the employee or function requesting the lien notice
instead of returning them to a single location. To provide a method of reviewing undelivered
lien notices, the Director, Collection, SB/SE Division, also established procedures to enable
employees to determine the mail status of lien notices without ALS research. Specifically,
employees handling undelivered lien notices are now required to input a specific IDRS
                                                                                            Page 8
                     Additional Actions Are Needed to Protect Taxpayers’ Rights
                                     During the Lien Due Process



transaction code with an appropriate action code. The transaction code and appropriate action
code indicate the reason the lien notice was returned (i.e., undelivered, unclaimed, or refused).
These codes are required to be entered into the IDRS after appropriate research of the returned
lien notice is performed.
Our test of undelivered lien notices determined that employees are not complying with this
procedure. None of the 283 undelivered lien notices that we sampled had the transaction code
and associated action code input to the IDRS. Management believes that the requirements to
enter these codes were not being enforced because, initially, procedures were not consistent. For
example, ACS procedures for processing undelivered lien notices did not include any reference
to the requirement. Management also indicated that the procedures may not have been clear.
Compliance with these procedures is important because it allows management to review the
handling of undelivered lien notices. Undelivered lien notices are being sent back to over
450 Collection function groups throughout the country where the employees or functions that
requested the liens are located. The combination of decentralizing the handling of undelivered
lien notices and the failure of employees to update taxpayers’ data in the IDRS resulted in
management’s inability to ensure and enforce the timely resolution of undelivered lien notices.
This contributed to the number of undelivered lien notices that were not researched timely
increasing from 33 percent in Fiscal Year 2008 to nearly 83 percent in Fiscal Year 2009.
Further, because employees are not following the procedures to enter the information into the
IDRS, information about undelivered mail is limited to the employees working the undelivered
mail. IRS management, including Accounts Management organization12 employees and even
Centralized Lien Unit employees, who have access to the ALS, do not have access to
information on undelivered lien notices. As a result, Taxpayer Assistance Center 13 employees
would not be able to answer taxpayer questions about their Federal Tax Liens.
Management was aware of this condition and issued a memorandum in May 2008 to remind
Collection function employees of this requirement. However, an internal review in July 2008
found that transaction and action codes were not entered in all 63 cases the IRS sampled in its
review. As a result, in January 2009, management revised Internal Revenue Manual sections
specifying the requirement to enter information about undeliverable mail into the IDRS. This
corrective action was taken after our sample selection and will be evaluated in next year’s
review.




12
   The Accounts Management organization is responsible for providing taxpayers with information on the status of
their returns, refunds, and for resolving the majority of issues and questions to settle their accounts.
13
   IRS offices with employees who answer questions, provide assistance, and resolve account-related issues for
taxpayers face to face.
                                                                                                          Page 9
                  Additional Actions Are Needed to Protect Taxpayers’ Rights
                                  During the Lien Due Process



Recommendation
Recommendation 3: To ensure accurate notification of lien filings, the Director, Collection
Policy, SB/SE Division, should establish an automated check of a taxpayer’s last known address
within the ALS immediately prior to printing a lien notice. This automated check should include
an increase in the frequency of updates of IDRS information to reach the ALS to provide more
timely updates of taxpayer information.
       Management’s Response: IRS management agreed with this recommendation and
       will 1) determine if the ALS can accommodate IDRS real-time data exchange and
       2) if feasible, initiate programming work requests.




                                                                                       Page 10
                     Additional Actions Are Needed to Protect Taxpayers’ Rights
                                     During the Lien Due Process



                                                                                                 Appendix I

         Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether liens issued by the IRS comply with legal
guidelines set forth in I.R.C. § 6320 (a) 1 and related guidance in the Federal Tax Lien Handbook.
To accomplish the objective, we:
I.      Determined whether taxpayer lien notices related to 125 Federal Tax Liens filed by the
        IRS complied with legal requirements set forth in I.R.C. § 6320 (a) and related internal
        guidelines.
        A. Selected a statistically valid sample of 125 Federal Tax Lien cases from the ALS 2
           extract of the 711,780 liens filed by the IRS nationwide between July 1, 2007, and
           June 30, 2008. We used a statistical sample because we wanted to project the number
           of cases with errors. We used attribute sampling to calculate the minimum sample
           size (n), 3 which we rounded to 125:
              n = (Z2 p(1-p))/(A2)
              Z = Confidence Level:            90 percent (expressed as 1.65 standard deviation)
              p = Expected Rate of Occurrence: 4 percent (prior reports 5% - 3%)
              A = Precision Rate:              ±3 percent
        B. Validated the ALS extract by comparing the sampled records to online data from the
           ALS and by reviewing management system evaluations that covered reliability,
           completeness, and accuracy.
        C. Determined whether the sampled liens adhered to legal guidelines regarding timely
           notifications of lien filings to the taxpayer, the taxpayer’s spouse, or business partners
           by reviewing data from the ALS, ICS, ACS, IDRS, and the certified mail list.
        D. Evaluated the controls and procedures established for transferring, storing, and
           safeguarding certified mail lists at the Centralized Case Processing function.
        E. Determined whether taxpayers’ representatives were provided a copy of the lien due
           process notice by reviewing data from the ALS, IDRS, ICS, and ACS.




1
  I.R.C. § 6320 (Supp. V 1999).
2
  See Appendix VI for descriptions of IRS computer systems used in the filing of Notices of Federal Tax Lien.
3                    2          2
  The formula n = (Z p(1-p))/(A ) is from Sawyer’s Internal Auditing - The Practice of Modern Internal Auditing,
4th Edition, pp. 462-464.
                                                                                                         Page 11
                      Additional Actions Are Needed to Protect Taxpayers’ Rights
                                      During the Lien Due Process



             1. Reviewed IDRS screens for CAF indicators (Transaction Code 960) for all
                sampled cases.
             2. Reviewed ALS history screens for accounts with CAF indicators to see if lien
                notices were mailed to taxpayers’ representatives within 5 business days of
                mailing the taxpayer’s notice.
        F. Validated data from the ACS and the ICS by relying on the Treasury Inspector
           General for Tax Administration Data Center Warehouse 4 site procedures that ensure
           that data received from the IRS are valid. The Data Center Warehouse performs
           various procedures to ensure that it receives all the records in the ACS, ICS, and IRS
           databases. In addition, we scanned the data for reasonableness and are satisfied that
           the data are sufficient, complete, and relevant to the review. All the liens identified
           are in the appropriate period, and the data appear to be logical.
        G. Provided all exception cases to Office of Collection Policy, SB/SE Division, for
           agreement to potential violations and corrective actions if appropriate.
II.     Evaluated the procedures for processing lien notices 5 that are returned as undelivered.
        A. Selected a judgmental sample of unprocessed mail containing undelivered lien notices
           received during the period November 18 through November 25, 2008, and recorded
           the taxpayer’s name, address, Social Security Number, and serial lien identification
           number. The judgmental sample included only returned mail identified as
           undelivered. The population of returned mail identified as undelivered is unknown
           because the IRS does not record the receipt of undelivered mail. A judgmental
           sample was used for this reason and the test was conducted to show weaknesses for
           which management needed to take corrective action.
        B. Researched the IDRS using command code INOLES and determined whether the
           address on the Master File 6 matched the address on the undelivered lien notice for
           each sampled case.
        C. Reviewed IDRS audit trails and determined whether IRS employees timely performed
           the required IDRS research for resolution of undelivered status for each sampled case.
        D. Reviewed the IDRS and verified whether the Transaction Code 971 and
           corresponding action codes were entered into the IDRS for each sampled case.



4
  A centralized storage and administration of files that provide data and data access services to IRS data.
5
  Notice of Federal Tax Lien Filing and Your Right to a Hearing Under IRC 6320 (Letter 3172 (Rev. 9-2006)),
Cat. No. 26767I.
6
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                           Page 12
                 Additional Actions Are Needed to Protect Taxpayers’ Rights
                                 During the Lien Due Process



III.   Determined whether internal guidelines had been implemented or modified since our last
       review by discussing procedures and controls with appropriate IRS personnel in the
       National Headquarters.
IV.    Determined the status of ICS and ACS system enhancements and any problems
       encountered.




                                                                                      Page 13
                 Additional Actions Are Needed to Protect Taxpayers’ Rights
                                 During the Lien Due Process



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl Aley, Director
Timothy Greiner, Audit Manager
Meaghan Shannon, Lead Auditor
Janis Zuika, Senior Auditor
Stephen Elix, Auditor
Curtis Kirschner, Auditor
Jeffrey Williams, Information Technology Specialist




                                                                                      Page 14
                 Additional Actions Are Needed to Protect Taxpayers’ Rights
                                 During the Lien Due Process



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self Employed Division SE:S
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Collection Policy, Small Business/Self-Employed Division SE:S:C:CP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                 Page 15
                     Additional Actions Are Needed to Protect Taxpayers’ Rights
                                     During the Lien Due Process



                                                                                             Appendix IV

                                    Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Potential; 45,554 taxpayer representatives may not have
    been provided Notices of Federal Tax Lien and Your Right to a Hearing Under I.R.C. § 6320
    (Letter 3172), 1 resulting in potential violations of taxpayers’ rights (see page 4).
Methodology Used to Measure the Reported Benefit:
From a statistically valid sample of 125 Federal Tax Lien cases, we identified 8 (30 percent) of
27 cases for which IRS employees did not provide notice to taxpayer representatives, resulting in
potential violations of taxpayers’ rights. In the eight cases, the ALS record did not indicate that
the IRS had sent copies of the lien notices to the representatives. The sample was selected based
on a confidence level of 90 percent, a precision rate of ±3 percent, and an expected rate of
occurrence of 4 percent. We projected the findings to the total population provided by the IRS of
711,780 Notices of Federal Tax Lien generated by the ALS between July 1, 2007, and
June 30, 2008.

Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Actual; 17 taxpayers were not provided Letters 3172,
    resulting in potential legal violations of taxpayers’ rights (see page 7).

Methodology Used to Measure the Reported Benefit:
In a judgmental sample of 283 undelivered lien notices, we determined that the IRS did not send
notices to the updated addresses of 17 taxpayers. Taxpayer rights could be affected because a
taxpayer not receiving a notice or receiving a late notice might be unaware of the right to appeal
or might receive less than the 30-calendar day period allowed by the law to request a hearing. In
addition, taxpayer rights could be further affected when the taxpayer appeals the filing of the lien
and the IRS denies the request for the appeal.


1
 Notice of Federal Tax Lien Filing and Your Right to a Hearing Under I.R.C. 6320 (Letter 3172 (Rev. 9-2006)),
Cat. No. 26767I.
                                                                                                       Page 16
                     Additional Actions Are Needed to Protect Taxpayers’ Rights
                                     During the Lien Due Process



                                                                                                Appendix V


             Synopsis of the Internal Revenue Service
               Collection and Lien Filing Processes

The collection of unpaid tax begins with a series of letters (notices) sent to the taxpayer advising
of the debt and asking for payment of the delinquent tax. IRS computer systems are
programmed to mail these notices when certain criteria are met. If the taxpayer does not respond
to these notices, the account is transferred for either personal or telephone contact.
    •   IRS employees who make personal (face-to-face) contact with taxpayers are called
        revenue officers and work in various locations. The ICS 1 is used in most of these
        locations to track collection actions taken on taxpayer accounts.
    •   IRS employees who make only telephone contact with taxpayers work in call sites in
        Customer Service offices. The ACS is used in the call sites to track collection actions
        taken on taxpayer accounts.
When these efforts have been taken and the taxpayer has not paid the tax liability, designated
IRS employees are authorized to file a lien by sending a Notice of Federal Tax Lien2 to
appropriate local government offices. Liens protect the Federal Government’s interest by
attaching a claim to the taxpayer’s assets for the amount of unpaid tax. The right to file a Notice
of Federal Tax Lien is created by I.R.C. § 6321 (1994) when:
    •   The IRS has made an assessment and given the taxpayer notice of the assessment, stating
        the amount of the tax liability and demanding payment.
    •   The taxpayer has neglected or refused to pay the amount within 10 calendar days after the
        notice and demand for payment.
When designated employees request the filing of a Notice of Federal Tax Lien using either the
ICS or the ACS, the ALS processes the lien filing requests from both Systems. In an expedited
situation, employees can manually prepare the Notice of Federal Tax Lien. Even for manually
prepared liens, the ALS controls and tracks the liens and initiates subsequent lien notices 3 to
notify responsible parties of the lien filings and of their appeal rights. The ALS maintains an


1
  See Appendix VI for detailed descriptions of IRS computer systems used in the filing of Notices of Federal Tax
Lien.
2
  Notice of Federal Tax Lien (Form 668(Y) (c); (Rev. 10-1999)), Cat. No. 60025X.
3
  Notice of Federal Tax Lien Filing and Your Right to a Hearing Under IRC 6320 (Letter 3172 (Rev. 9-2006)),
Cat. No. 26767I.
                                                                                                          Page 17
                  Additional Actions Are Needed to Protect Taxpayers’ Rights
                                  During the Lien Due Process



electronic database of all open Notices of Federal Tax Lien and updates the IRS’ primary
computer records to indicate that a Notice of Federal Tax Lien has been filed.
Most lien notices are mailed to taxpayers by certified or registered mail, rather than delivered in
person. To maintain a record of the notices, the IRS prepares a certified mail list
(United States Postal Service Form 3877), which identifies each notice that is to be mailed. The
notices and a copy of the certified mail list are delivered to the United States Postal Service. A
United States Postal Service employee ensures that all notices are accounted for, date stamps the
list, and returns a copy to the IRS. The stamped certified mail list is the only documentation the
IRS has that certifies the date on which the notices were mailed. IRS guidelines require that the
stamped certified mail list be retained for 10 years after the end of the processing year.




                                                                                           Page 18
                     Additional Actions Are Needed to Protect Taxpayers’ Rights
                                     During the Lien Due Process



                                                                                              Appendix VI

Internal Revenue Service Computer Systems Used in
      the Filing of Notices of Federal Tax Lien

The Automated Collection System (ACS) is a computerized call site inventory system that
maintains balance-due accounts and return delinquency investigations. ACS function employees
enter all of their case file information (online) on the ACS. Lien notices requested using the
ACS are uploaded to the ALS, which generates the Notices of Federal Tax Lien 1 and related lien
notices and updates the IRS’ primary computer files to indicate that Notices of Federal Tax Lien
have been filed.
The Automated Lien System (ALS) is a comprehensive database that prints Notices of Federal
Tax Lien and lien notices, stores taxpayer information, and documents all lien activity. Lien
activities on both ACS and ICS cases are controlled on the ALS by Technical Support or Case
Processing functions at the Cincinnati, Ohio, Campus. 2 Employees at the Cincinnati Campus
process Notices of Federal Tax Lien and lien notices and respond to taxpayer inquiries using the
ALS.
The Integrated Collection System (ICS) is an IRS computer system with applications designed
around each of the main collection tasks such as opening a case, assigning a case, building a
case, performing collection activity, and closing a case. The ICS is designed to provide
management information, create and maintain case histories, generate documents, and allow
online approval of case actions. Lien requests made using the ICS are uploaded to the ALS. The
ALS generates the Notices of Federal Tax Lien and related lien notices and updates the IRS’
primary computer files to indicate Notices of Federal Tax Lien have been filed.
The Integrated Data Retrieval System (IDRS) is an online data retrieval and data entry system
that processes transactions entered from terminals located in campuses and other IRS locations.
It enables employees to perform such tasks as researching account information, requesting tax
returns, entering collection information, and generating collection documents. The IDRS serves
as a link from campuses and other IRS locations to the Master File 3 for the IRS to maintain
accurate records of activity on taxpayers’ accounts.



1
  Notice of Federal Tax Lien (Form 668(Y) (c); (Rev. 10-1999)), Cat. No. 60025X.
2
  A campus is the data processing arm of the IRS. The campuses process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
3
  The Master File is the IRS database that stores various types of taxpayer account information. This database
includes individual, business, and employee plans and exempt organizations data.
                                                                                                        Page 19
    Additional Actions Are Needed to Protect Taxpayers’ Rights
                    During the Lien Due Process



                                                   Appendix VII

Management’s Response to the Draft Report




                                                          Page 20
Additional Actions Are Needed to Protect Taxpayers’ Rights
                During the Lien Due Process




                                                      Page 21
Additional Actions Are Needed to Protect Taxpayers’ Rights
                During the Lien Due Process




                                                      Page 22
Additional Actions Are Needed to Protect Taxpayers’ Rights
                During the Lien Due Process




                                                      Page 23
